                            CLOSEOUT FOR M93100050




had        him, he had written the proposal, but two months after the proposal was submitted,
she told him she believed the information to be incorrect. He characterized the problems with
the proposal as "minor".

        We contacted the complainant to learn more about the problems with the proposal and
to determine if these problems would be considered a misconduct-in-science matter. He told
us that he had informed his University about the problems and it was currently conducting an
investigation under its misconduct regulations. When we contacted the University we learned
that the complainant, not the student, was the subject of an inquiry under its misconduct
regulations. No complaint had been filed against the student. We already had a case,
M93080046, that identified the complainant as the subject. As part of that case we learned
that the University found that the professor, not the student, had committed misconduct in
science with respect to the proposal.

       This inquiry is closed and no further action will be taken.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 1 of I
